20-6295
no.

Oft)03i

In The

Supreme Court of the Urnfe.^

fill]

Oonn^

Sm

I
II?

Petitioner(s)

y.

Ttanr#s t*)be /,

n Respondent(s)
FILED
AUG 28 2019

On Petition For Writ Of Certiorari
To The (court whose judgment you seek to review)
5>Mp*X'0r\£ Cour-V tX
her

SUPREMEFCni^Lg<J

fjo-o^Id\i fbUA

PETITION FOR WRIT OF CERTIORARI

My Name

nu

* u € Lf

Counsel of Record
My Firm 0foS-e.

My Street Address Po
City, State, Zip Code vssW\ v\ iVe kX3.Cfr3&
My Telephone Number

RECEIVED
NOV 1 2 2020
•FFICE OF THE CLERK
SUPREME COURT, U.S.

— 9-

.f

No.

Qfr/0 3 *

IN THE
SUPREME COURT OF THE UNITED STATES

Donna Raively

PETITIONER

(Your Name)
vs.
Thomas A. Whelihan

.

- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of New Jersey

WA^XH

^

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Donna Raivelv
(Your Name)
P.0. Box 133
(Address)
Millville, N J. 08332
(City, State, Zip dode)
(850)459-5770
(Phone Number)

RECEIVED
NOV 1 2 2020
•FFICE OF THE CLERK
SUPREME COURT, U.S.

RECEIVED
DEC - 3 2019
OFFICE OF THE CLERK
giVRFME COURT, U.S.

QUESTION(S) PRESENTED

1 Whether an attorney is held to a certain standard of fiduciary duty in lower courts; his knowledge
of the law far exceeds that of the average person. They are entrustedwith personal information of their
client and should be trustworthy. When an attorney takes advantage of his fiduciary duty and not
only violates his clients contract but also his fmst, who will stop him if the court system fails to do so?
2. Whether or not an attorney is working on a different case for his client is it in his clients best
interest to have a custody case with a mentally challeged adult heard with an estate case?
3 Was it inadequate discovery or procrastination that caused an attorney to not reveal crucial case
not benefidary of? m3ny h°UrS W6re biHeCl t0 the c,lent seekjng moneY from an I R A. that they were

1
LIST OF PARTIES

[vf^AIl parties appear in the caption

of the case on the cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

!
.*

* S

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A New Jersey State Supreme Court denial

APPENDIX B Superior Court of New Jersey Appelate Division
APPENDIX C Superior Court of New Jersey Civil Cumberland
APPENDIX D Disciplinary Review Board of Supreme Court of New Jersey

APPENDIX E Arbitration Determination
APPENDIX F

\

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Coyle V Englander

super 212

Donovan V Bach Stadt

91 N.J. 434

525 Main Street Corp V Eagle Roofing Co

34 N.J. 251

STATUTES AND RULES
41 U.S. S6503 Breach or Violation of contract terms
29 U.S. S1109 Liability for breach of fiduciary duty

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ 1 For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

\nFor cases from state courts:
The opinion the highest state court to review the merits appears at
Appendix
__ to the petition and is
L J reported at.__________________________ ___________ ; or,
[ Vhas been designated for publication but is not yet reported; or,
\r. is unpublished.
The opinion of the_________________________
court
appears at Appendix_____ to the petition and is
[ ] reported at__________________
*
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[ j For eases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

MiFor cases from state courts:
The date on which the highest state eourt decided my case was
A copy of that decision appears at Appendix_______

28. 2019_

( ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including __— _________ (date) on____________
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
f

i

1 US* Cote, §
•bfeoein cc Vttjtortton o£

/

%

QCfiW& 1€<1W*

Donna Raively
PO Box 133
Millville NJ. 08332
856-459-5770
RE: Raively v. Whelihan
NO: 081031
Supreme Court Of The United States
Office Of The Clerk
Washington, DC 20543-0001
State The Case For Reason For The Petition For
Writ Certiorari Involves Significant Issues
Constitutional And Law Codes
On May 28th,2019 Denying My Petition
HONORABLE STUART RABNER
Justice
A Judgment order at Superior Court Of N.J. Cumberland County Docket NO: DC-1353-17 in
favor of Mr. Whelihan Esquire on June 27,2017, for amount of $13,952.52 that has been paid to
Mr. Whelihan, on matters of my father’s estate in November of 2014, along with a matter of
guardianship of my sister to be taken care of in the future, guardianship was not part of the
estate, and not left in my father’s will to be heard.
I then Appealed the case with the Disciplinary Review Board.
Who has all copies of information that they review, to make their decision on my Appeal
July,13,2017, with Appendix and Brief, for the Supreme Court Of The United States to review.
A conflict of the law and my constitutional rights were violated by the law, the fact that
Mr.Whelihan breached his contract by not sending me a monthly statement on the estate matter
stated on his contract agreement, on 12/1/14 with no contract agreement on my sister's
guardianship matter.
I also signed the contract agreement that states if this matter goes to court, it would have to go
through the Disciplinary Review Board, he’s a Lawyer, I'm not, he knows it would be hard to fight
with the board to make a decision there was NJ law code that is in the Lawyers favor.
Mr. Whelihan takes advantage of the law in his favor.
Mr. Whelihan promised me that he was going to bill my other sister, for all service on my behalf,
since my sister took over 150,000,00 from 2011 through 2014, how I know, I went to the bank
after my father diseased, to get a copy of the IRA account, at that time I was giving my sister’s
checking account by mistake, I wanted Mr. Whelihan to show case with the courts, the money
she took for her personal uses, Mr. Whelihan went against my wishes.

My sister was the executor of the estate will, and the owner of my father’s IRA beneficiary and
the owner of the estate house.
Mr. Whelihan duties to me were unethical for two different matters heard at the same time,
using the two cases against each other.
Because both matters were put together I lost full custody of my sister who is mentally
handicap, my mother put this guardianship matter in place in 2004 before she died in 2011, this
was her last wish for her two other daughters to have guardianship together. There is a strong
feeling I carry with me every day, that I let Mr. Whelihan failed my mother, and the only thing I
could do was except to take the house, and give full guardianship to my other sister, and I’am
still fighting over this at Cumberland Courts, on the yearly report my sisters has to report to the
courts, she is know taken advantage of my incompetent sisters funds.
This was argued by the panel of the Disciplinary Review Board Of Supreme Court Of New
Jersey, the case was dismissed on June 16,2017 Docket No:IIIB-2016-0005F.
I then Appealed the case with the lower Appellate Court.
A conflict of the law at the lower Appellate Division Court, on May 28,2019 was denied and filed.
Please review and overturn Honorable Stuart Rabner denying my petition, and a second petition
to reconsider to stay, lower Appellate Division Court,
On May 28,2019 the denial was filed with M-1035 September Term 2018 081031, without a
written decision from Honorable Stuart Rabner..
A conflict of Appellate Division Decision on the judicial opinion, statements made by the courts
on the facts disputes the law, the decision abandoned its law rule under ethical rule, breach of
contract terms, liability for breach of fiduciary duty, Mr. Whelihan did not meet the standards
expected, I was not treated with the level of expertise and competence that was expected when
he was hired, Mr. Whelihan failed to adequately represent me.
I did ask for itemize billing at time, so I would know where I stand or keep fighting the case, he
would state to me don’t worry, you can pay me when the house gets sold, Mr. Whelihan failed to
research appropriately by not finding out sooner that the estate money on the IRA didn’t belong
to me ever, the time spent on chasing my father’s IRA money, and going back and forth in court
was excelling.
Requesting the Supreme Court Of The United States to grant rule of professional conduct code.
Mr Whelihan was given time to cross-appeal with notified certified mail, the 14 day rule to
respond, he should not be given another chance, to dismiss the case in my favor.
I lost my full guardianship of my sister by Mr. Whelihan, butting the two cases together for a less
favorable result, my rights were taken away, and my obligations are restricted, at the
Cumberland Courts.

Immediately grant a judgement for Mr. Whelihan to pay back $13,952.5 plus punitive damages,
I'm entitled to seek damages, with a time frame to pay me back.

See CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED 41 U.S. Code S 6503
AND 29 U.S. CODE S 1109, CASES: COYLE v ENGLANDER PG SUPER 212, DONOVAN v
BACH STADT 91 N.J.434, 525 MAIN STREET CORP v EAGLE ROOFING CO 34 N.J.251,
SEE COPY ON PETITION FOR WRIT OF CERTIORARI 11/22/19.

Donna Raively
PO Box 133
Millville NJ. 08332
856-459-5770

Date: 11/3/2020
RE: Raively v. Whelihan
NO: 081031
Supreme Court Of The United States
Office Of The Clerk
Washington, DC 20543-0001
Reason To Grant For The Petition For
Writ Certiorari Involves Significant Issues
Disputing Findings and Facts Judge Rabner
Disputing Disciplinary Review Board

Justice,
I requested to put in a grievance on the decision by Disciplinary Review Board on 5/16/17, (see
copy inclosed) reason I don’t believe that the Attorney General investigated the committee’s
behavior on 3/16/17, one of the ladies excused herself right in the middle of review that day
because she had a doctor's apportment, there was no man in the interview, that Mrs. Davis
states in a letter to me, I despite Bert Afonse, his comments, the meeting was very disrespectful
towards us, problem, I didn’t have a lawyer with me, there was rash anger during this case.
I'm requesting that the board committee be dismissed. With the Supreme Court Of The United
States only to make their own decision on this case, I will request that the Supreme Court get all
other copies to do with this case, but not their determination.
Requesting myself and husband William Raively as a witness to be at the hearing during the
review matters, Supreme Court.
Guardianship was not part of the will estate, infact due to my sister being incompetent my sister
was left out of the will, and there was no agreement contract of any charge amount by
Mr.Whelihan on this court hearing matter, through Cumberland County Courts Surrogate’s
Office, (see estate will and attorney contract heard at the review board). Intent to harm estate
case rule 1:14 of ethics.
The guardianship and my father’s estate, my sister's guardianship was already put in place in
2004,(see order Cumberland county) this should not have been heard, Mr Whelihan should of

stopped this immediately, at that point there was intent for harm done on the other case (estate)
and for any other reason this had to be heard, then this matter should've been heard separately.
A conflict of the law and my constitutional rights were violated by the law, the fact that
Mr.Whelihan breached his contract by not sending me a monthly statement on the estate matter
stated on his contract agreement, (see copies of billing statements through the review board)
Mr. Whelihan took advantage of the law in his favor, I had to sign his contract stating, if this
matter has to be dispute, then I would have to go through the Disciplinary Review Board Of New
Jersey, if I understood this at the time, I would have questioned that I would be able to have took
this matter through Burlington Supreme Court Of New Jersey, on breach of contract.(he took
advance of me not knowing the law, I’m not a lawyer)
Mr. Whelihan promised me and had me believe that he was going to bill my other sister, for all
service on my behalf.
Mr. Whelihan went against my wishes, and continued to fight the estate case at Cumberland
Courts, knowing my sister was the executor of the will and I was not entitled to anything, Mr.
Whelihan did not even fight for the estate to pay the utilitys/taxes/funeral services remadeing
etc/ in the end I had to pay for all this, which put a hardship on my finances.
Mr. Whelihan duties to me were unethial for two different matters heard at the same time, using
the two cases against each other.
Because both matters were put together I lost full custody of my sister.
On May 28,2019 the denial was filed with M-1035 September Term 2018 081031, without a
written decision from Honorable Stuart Rabner, it’s my right to know how this case was
deturmed.
A conflict of Appellate Division Decision on the judicial opinion, statements made by the courts
on the facts disputes the law, the decision abandoned its law rule under ethical rule, breach of
contract terms, liability for breach of fiduciary duty, Mr. Whelihan did not meet the standards
expected, I was not treated with the level of expertise and competence that was expected when
he was hired.
Mr. Whelihan failed to adequately represent me, I did fire him toward the end of the estate
hearings, and guardianship case, I seek another Attorney to review what I could do to stop
Mr.Whelihan behavior toward me.(copys were addressed through the board).
I wanted Mr.Whelihan to address something, like the guardianship not heard, I want my sister's
personal bank statements, showing taking money out of the IRA for her personal matters,
addressing to the courts, my sister paying for my Attorney fees through my father's estate, the
will heard right from the beginning of trial, through the court system and he would not.

Mr Whelihan was given time to cross-appeal with notified certified mail, the 14 day rule to
respond, he should not be given another chance, or court order for his responds, I'm requesting
to dismiss the case in my favor.
I lost my full guardianship of my sister by Mr. Whelihan, butting the two cases together for a less
favorable result, my rights were taken away, and my obligations are restricted, at the
Cumberland Courts now adorning any appeals at this time.
Requesting the Supreme Court Of The United States to grant rule of professional contact code,
communication RPC 1.4 rule.
Immediately grant a judgement without another hearing based on the facts, for Mr. Whelihan to
pay back $13,952.5 plus punitive damages, I'm entitled to seek damages, with a time frame
date ordering him to pay back.
Enclosed is a copy of the Judgement check to Mr. Whelihan on June 19,2018.
See CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED 41 U.S. Code S 6503
AND 29 U.S. CODE S 1109, CASES: COYLE v ENGLANDER PG SUPER 212, DONOVAN V
BACH STADT 91 N.J.434, 525 MAIN STREET CORP v EAGLE ROOFING CO 34 N.J.251,
SEE COPY ON PETITION FOR WRIT OF CERTIORARI 11/22/19.

Cc: Mr.Whelihan

AMENDMENT TO A PETITION FOR WRIT OF CERTIORARI 20019
I'm filing an Amendment to show cause to win this case, and be granted all monies due back to

me.
1- see copies by Mattew Conicella Supreme Court Of New Jersey Appellate Division case
number A-004887-16, should of been granted on my behalf because Mr. Whelihan failed to
submit copies of my petition for certification in compliance with the ru!e:2:12-7 and r 2:12-4
together with a response brief within a time of benign service has been heard and in fact, he
violated the rule 2:12-8.
2- see copies April 17,2018 contract agreement December 12014, Mr Whelihan has failed to
submit monthly billing to me it states this in his contract agreement (liability of breach of
fiduciary).
3- During the case being heard in Cumberland Courts, Mr. Whelihan had violated my rights, by
putting my father's probate case together along with my sister's case of guardianship, the
probate had nothing to do with each other case, were Mr. Whelihan, plee Bargen, both cases
against each other, and I lost full guardianship to my sister, which my mother put into place
before her death in 2011, her last wishes for her daughters to be safe.
4-1 told Mr. Whelihan that the Judge on the probate matter in Cumberland County was a conflict
■ - - - — Judge, in or-around 2004,1 put a complaint on the Judge after my son case with an incompetent
hearing, and I wanted the case moved out of Cumberland, he never put a request in with the
courts.
5- Mr. Whelihan left a burden on my family, he took the Judgment that I owed him money and
filed for the sheriff department to sell my house and belongings, I had to get a loan, I had at the
time, three grandchildren and still do liveing with us by court order.
It should be the duty of the Judge at the Supreme Court Of The United States in Wahington DC,
to abide by his duty to enforce this provision on the rule of professional conduct, by the code of
judicial conduct and the provision rule 1:15 and R 1:17 (civil rights violation) and breach of
contract and to wave all Mr. Whelihan rights to file any objections.
If I need any other forms to fill out please send to the above address.
ik You,

ina Raively

/

t

.»

»c

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

t

